U.S. Department of Labor                Office of Inspector General
                                        Washington, DC. 20210




September 29, 2009




MEMORANDUM FOR:            JANE OATES
                           Assistant Secretary
                             for Employment and Training




FROM:                      ELLIOT P. LEWIS
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Alert Memorandum: Recovery Act: YouthBuild Grantees
                           Have Not Been Informed of the Expanded Population
                           Eligible to be Served with Recovery Act Funds
                           Report Number: 18-09-005-03-001

This memorandum transmits the results of grant notification issues found during our
performance audit of the American Recovery and Reinvestment Act of 2009 (Recovery
Act) YouthBuild grantees, and recommends immediate corrective action. At the
entrance conference, we agreed to notify the Department of any conditions we
encountered during fieldwork that we believe needed to be addressed in a timely
manner. Accordingly, we are raising concerns about notification to grantees about
certain participants eligible to be served under provisions of the Recovery Act. The
results included in this interim report are based on our work to date. Fieldwork is
continuing and we will provide overall audit results when our work is complete.

From interviews with YouthBuild officials and the grants officer, and a review of
YouthBuild grants made with Recovery Act funds, we found that the grantees were not
made aware that the Recovery Act expanded the population that could be served with
these funds. The Act specifies that the YouthBuild program may serve an individual who
has dropped out of high school and re-enrolled in an alternative school, if that re-
enrollment is part of a sequential service strategy. This language allows the YouthBuild
program to serve more youths because prior to the Recovery Act, the program could not
serve youths who had dropped out of high school and who had re-enrolled in an
alternative school.

Because this particular YouthBuild award was made from a grant solicitation issued
before the Recovery Act became law and the grants were made after the Act was
passed, the potential existed for issues to arise during the transition. The grant

                       Working for America’s Workforce
solicitation was issued on October 7, 2008, and not amended. The grant application
closing date was January 15, 2009, and the grants were made on June 12, 2009.
YouthBuild grants awarded with Recovery Act funds under the pre-Recovery Act
solicitation should have notifications included in the grants on the program’s criteria
specific to the Act.

The Recovery Act YouthBuild grants in the amount of $47 million awarded on June 12,
2009, contained an attachment to each grantee specifying eligibility criteria for
participants to qualify for receipt of YouthBuild funds. The criteria listed did not include
the criteria provided by the Act that youth who have dropped out of school and re-
enrolled in alternative schools are now eligible to receive YouthBuild funds if that re-
enrollment is part of a sequential service strategy. The lack of notification raises the
potential that Congressional intent may not be carried-out under this program.

It is important that the Department notify Recovery Act YouthBuild grantees to ensure
that they are aware of the expanded population Congress intended to be considered
eligible to receive Recovery Act funds. Accordingly, we recommend that the
Employment and Training Administration immediately notify all YouthBuild grantees that
received Recovery Act funds to inform them of the population of individuals to be
served.

We request that you take action and respond to this report within 10 days on actions
taken. Please contact Michael Gilbert, Audit Director, Recovery Act Audits, at (202) 693-
5173, if you have any questions.

cc:    Edward C. Hugler, Senior Accountable Official for the American Recovery and
       Reinvestment Act of 2009
       Laura Watson, Assistant Deputy Administrator, Office of Grants and Contracts
       Greg Weltz, Chief, Division of Youth Services
       Eric Luetkenhaus, Chief, Division of Federal Assistance
       Phyllis Newby, ETA Liaison




                                            -2-
